                      United States Department of the Interior

                                        Office of Inspector General
                                             Western Region
                                                 Federal Building
                                          2800 Cottage Way, Suite E-2712
                                            Sacramento, California 95825


                                                            Report No. W-VS-BOR-0001-2006
                                                                              May 30, 2006

Memorandum

To:            Assistant Secretary for Policy, Management and Budget
                 (Attention: Associate Director for Finance, Policy and Operations)
               Commissioner, Bureau of Reclamation

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Verification Review of Four Recommendations from Our September 2002
               Audit Report No. 2002-I-0052 Titled “Review of Central Valley Project
               Responsibilities Transferred Under Direct Funding Agreements Between
               BOR and Three California Water Authorities”

       The Office of Inspector General has completed a verification review of the four
recommendations presented in the subject audit report. The objective of the review was to
determine whether the recommendations were implemented as reported to the Office of
Inspector General and to the Office of Financial Management, Office of Policy, Management
and Budget. In a memorandum dated October 23, 2003, the Office of Financial Management
reported to the Office of Inspector General that all the recommendations in the subject report
had been implemented and that the audit report was closed.

Background

        Our September 2002 audit report, “Review of Central Valley Project Responsibilities
Transferred Under Direct Funding Agreements Between BOR and Three California Water
Authorities” (No. 2002-I-0052), made three recommendations to the Bureau of Reclamation
(BOR) relating to the transfer of fiscal responsibilities to the Water Authorities and one
recommendation on the lack of sufficient controls over water measurement and metering
activities of the Water Authorities.

        In a September 12, 2002 response to the draft of the subject report, BOR concurred
with all four of the recommendations. Based on this response, we considered
Recommendations 1 and 2 to be resolved and implemented and Recommendations 3 and 4 to
be resolved but not implemented. Accordingly, on October 21, 2002, we referred
Recommendations 3 and 4 to the Office of Financial Management for tracking of
implementation.

Scope and Methodology

        The scope of this review was limited to determining whether BOR took adequate
action to implement the recommendations. To accomplish our objective, we reviewed the
supporting documentation that BOR officials provided to close the recommendations. We
also interviewed regional and area office personnel within BOR’s Mid-Pacific Region to
gather additional information on the actions taken to implement the recommendations.

         We did not perform any site visits (other than BOR’s Mid-Pacific Regional Office in
Sacramento, California) or conduct any detailed audit fieldwork to determine whether the
underlying deficiencies that were initially identified have actually been corrected. As a
result, this review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

                                          Results of Review
        Our current review found that BOR implemented Recommendations 1 and 2 but did
not take sufficient action to implement Recommendations 3 and 4. The status of the
recommendations is summarized in the Appendix.

Recommendation 1: “Take the immediate steps necessary to ensure that the Water
Authorities comply with Federal law as outlined by the Office of the Solicitor.”

        In its September 12, 2002 response to the draft of the report, BOR stated it had
revised the agreement with the Tehama-Colusa Canal Authority (TCCA) as recommended by
the Office of the Solicitor. Also, BOR notified the San Luis and Delta Mendota Water
Authority (SLDMWA) and the Friant Water Authority (FWA)1 in writing of the requirement
to comply with the legal opinion. Subsequently BOR instructed SLDMWA and FWA to
close out the fiscal agent accounts and remit the fund balances to BOR.

      We obtained the revised TCCA agreement and reviewed the letters to SLDMWA and
FWA and concluded that BOR had taken the immediate corrective action envisioned by this
recommendation. Accordingly, we concluded that Recommendation 1 has been resolved and
implemented.




1
 BOR entered into this direct funding agreement with the Friant Water Users Authority. In a June 30, 2004
amendment to the agreement, the Friant Water Users Authority assigned all rights, title, and interest in the
agreement to FWA.


                                                       2
Recommendation 2: “Take action to amend the direct funding agreements to terminate
Water Authority designation as fiscal agents and re-establish financial mechanisms by
which water districts would directly pay BOR for their water use.”

        In its September 12, 2002 response to this recommendation, BOR stated it terminated
the TCCA fiscal agent designation and was amending the SLDMWA and FWA agreements
to terminate their fiscal agent designations. BOR also stated that it notified the individual
water districts to submit amounts due BOR directly to the U.S. Treasury.

        We obtained the revised agreements with each Water Authority and verified that the
fiscal agent designation and related provisions were removed from the agreements. We also
verified that BOR advised the water districts to make their required payments directly to the
U.S. Treasury. As a result, we concluded that Recommendation 2 has been resolved and
implemented.

Recommendation 3: “Work with the Water Authorities to reconcile each of the water
district payments with the amounts retained and forwarded by the Water Authorities
since the inception of the direct funding agreements.”

         In an October 14, 2003 memorandum to the Office of Financial Management, BOR
stated that it provided specific instructions to each Water Authority for documenting water
district payments included in the fiscal agent account balances that were remitted to the U.S.
Treasury. BOR also requested individual water districts to review and comment on their
analysis of payments reported by the Water Authorities. BOR stated that it reconciled the
amounts recorded in the accounting records for each water district with the amounts reported
by the Water Authorities.

        During our review, we found that BOR had completed the reconciliation of the
SLDMWA fiscal agent account. However, BOR had not completed the reconciliation of
payments to the FWA fiscal agent account to ensure that BOR received all payments due.
Regional office personnel told us that BOR hired a public accountant in 2005 to review
differences in amounts reported by water districts as paid to the FWA fiscal agent account.
An additional $150,000 was reported by water districts as paid to FWA that was not included
in the amounts FWA forwarded to the U.S. Treasury. As for TCCA, BOR officials did not
know whether a reconciliation was done, as the responsible BOR employee had retired. The
BOR officials could not find any evidence that the reconciliation was done.

       Subsequent to our exit conference, BOR officials provided us with additional
information from the public accountant reviewing the FWA payments showing that eight
water districts still had unexplained differences. A BOR official stated the reconciliation was
substantially complete, that the differences were minor, and that it was not cost beneficial to
continue trying to resolve the differences. However, BOR officials have not formally
determined that the reconciliation is complete or how the remaining differences will be
disposed of.




                                              3
        Additionally, although BOR originally concurred with the recommendation in
October 2003 to conduct reconciliations of all the Water Authorities, BOR officials told us
that they never agreed to do a reconciliation of TCCA. They believed that such a
reconciliation was not needed because of the relatively small amount of federal funds
collected and that no problems were identified in a previous review of TCCA payments.

        Because BOR had not completed all the reconciliations, we concluded that this
recommendation was not adequately implemented and therefore should be reinstated and
classified as not implemented.

Recommendation 4: “Establish, in conjunction with the Water Authorities, a Quality
Assurance Program that will ensure the integrity of the water measurement activities.”

         In its October 14, 2003 memorandum to the Office of Financial Management, BOR
said it collaborated with the Water Authorities to develop and implement a Quality
Assurance Program to ensure the integrity of water measurement activities. BOR stated that
the audit report’s concerns have been addressed by the three Water Authorities. Each Water
Authority established standard operating procedures designed to ensure that water measuring
devices were accurately recording the quantity of water delivered to each water district.

        We obtained each of the Water Authorities’ standard operating procedures and
concluded that these procedures addressed the recommendation from the Water Authorities’
perspective. However, based on discussions with BOR personnel identified as responsible
for implementing this recommendation, we concluded that BOR did not establish a Quality
Assurance Program to ensure the integrity of the water measurement activities. While we
were told that a regional office employee and three area office employees coordinated with
the Water Authorities to develop BOR’s response to the recommendation in 2003, the
regional office employee and an area office employee that coordinated with SLDMWA were
not involved with the subsequent implementation of a Quality Assurance Program. Only the
area office employee working with TCCA told us that he periodically visited TCCA and
verified that its standard operating procedures were in place and working. We were told that
such reviews would be done at FWA in the future.

        As part of its response to the recommendation, BOR provided the Office of Financial
Management with copies of memorandums from its three area office employees establishing
a range of losses (percentages) that, when comparing water BOR delivered to the Water
Authorities to the amount the Water Authorities delivered to water districts, would trigger an
investigation of potential misappropriation. The responsible BOR area office employee told
us that BOR did not conduct the contemplated investigations, even though FWA water
delivery data provided by BOR showed that this loss percentage was exceeded for 3 months
since 2003. The BOR area office employee told us BOR was in the process of refining the
loss percentage and may use a longer period of time for the analysis because of seasonal
variations in the loss percentages on the Friant-Kern Canal. The responsible area office
employee for SLDMWA told us he had not done the contemplated analyses and did not have
the water delivery data to do so.




                                              4
        Subsequent to our exit conference, BOR officials provided us with information
indicating that the area office had begun verifying FWA’s implementation of its standard
operating procedures and was also refining its criteria for reviewing water losses. However,
BOR officials agreed that the recommendation had not been implemented with respect to
SLDMWA.

        BOR involvement in the Quality Assurance Program is crucial to ensure the integrity
of water measurement activities. These activities are essential to BOR’s assessment and
collection of federal revenues and may be adversely impacted by the close relationship
between the Water Authorities and their member water districts. In addition to financial
impacts, accurate water measurements should be a concern because of the historic scarcity of
water supplies in California. As a result, we concluded that BOR had not taken sufficient
action to implement this recommendation and that it should be reinstated and classified as not
implemented.

Conclusion

       We informed BOR officials of the results of this review at an exit conference on
April 25, 2006. The officials agreed with the results of our review with the exception of
Recommendation 3, which they believed was substantially complete. BOR should provide
the Office of Financial Management with information on the actions it will perform to
implement Recommendations 3 and 4 by June 30, 2006.

Responding to the Report

       We request that the Office of Financial Management reinstate Recommendations 3
and 4 as not implemented from the subject audit report and inform us of the actions to be
taken for these recommendations.

       If you have any questions about this report, please contact me at (916) 978-5653.

cc:    Focus Leader for Management Control and Audit Follow-up, Office of Financial
        Management, Office of the Assistant Secretary for Policy, Management and Budget
       Audit Liaison Officer, Department of the Interior
       Audit Liaison Officer, Assistant Secretary for Water and Science
       Audit Liaison Officer, Bureau of Reclamation




                                              5
                                                                 Appendix

          STATUS OF PRIOR AUDIT RECOMMENDATIONS


Recommendation               Status                 Action Required

      1            Resolved and Implemented   No further action required.

      2            Resolved and Implemented   No further action required.

      3            Not Implemented            We are requesting the Office
                                              of Financial Management,
                                              Office of Policy,
                                              Management and Budget, to
                                              reinstate the
                                              recommendation. The
                                              Commissioner, BOR, should
                                              provide a plan identifying
                                              actions to be taken, target
                                              dates for implementation,
                                              and titles of officials
                                              responsible for
                                              implementation.

      4            Not Implemented            We are requesting the Office
                                              of Financial Management,
                                              Office of Policy,
                                              Management and Budget, to
                                              reinstate the
                                              recommendation. The
                                              Commissioner, BOR, should
                                              provide a plan identifying
                                              actions to be taken, target
                                              dates for implementation,
                                              and titles of officials
                                              responsible for
                                              implementation.




                               6
